<html>
<title> - BLACK FLAGS OVER MINDANAO: TERRORISM IN SOUTHEAST ASIA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                      BLACK FLAGS OVER MINDANAO: 
                      TERRORISM IN SOUTHEAST ASIA

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2017

                               __________

                           Serial No. 115-52

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-224 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Thomas M. Sanderson, senior fellow and director, 
  Transnational Threats Project , Center for Strategic and 
  International Studies..........................................     8
Ms. Supna Zaidi Peery, research analyst, Counter Extremism 
  Project........................................................    19
Sheena Greitens, Ph.D., assistant professor, University of 
  Missouri.......................................................    31
Mr. Michael Fuchs, senior fellow, Center for American Progress...    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     4
Mr. Thomas M. Sanderson: Prepared statement......................    11
Ms. Supna Zaidi Peery: Prepared statement........................    22
Sheena Greitens, Ph.D.: Prepared statement.......................    33
Mr. Michael Fuchs: Prepared statement............................    41

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    66

 
                      BLACK FLAGS OVER MINDANAO: 
                      TERRORISM IN SOUTHEAST ASIA

                              ----------                              


                        WEDNESDAY, JULY 12, 2017

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2200 Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. Welcome, everybody. The subcommittee will come to 
order. I welcome everybody here. This is a packed room. This is 
great. I love to see all this excitement.
    Members present will be permitted to submit written 
statements to be included in the official hearing record 
without objection.
    The hearing record will remain open for 5 calendar days to 
allow statements, questions, and extraneous material for the 
record subject to length limitations of the rules.
    And with that, I love the name of this or the title for 
this hearing: ``Black Flags over Mindanao: Terrorism in 
Southeast Asia.'' I think it is so important today to address 
this growing threat throughout the region.
    I am going to put on my new glasses my wife got me.
    Most of the debate in Washington about U.S. policy toward 
Asia focuses on state challenges such as the nuclear 
belligerence of the DPRK, the rise of China and related issues.
    The threat of transnational terrorism in Asia has been at 
best a secondary consideration and, at worse, an afterthought.
    The policy making community doesn't seem to consider 
terrorism in Asia with the same seriousness as it does in the 
Middle East.
    But ISIS' increasingly aggressive moves in Southeast Asia, 
which have to a head in recent weeks have shown us that the 
issues are indivisibly related and that the laxity of our 
approach is no longer tenable.
    The looming threat of ISIS has exploded into open conflicts 
in the city of Marawi on the island of Mindanao in the southern 
Philippines.
    ISIS fighters have occupied areas of the city for 7 weeks, 
resisting efforts by the armed forces of the Philippines to 
drive them out.
    Fighters from domestic terrorist organizations who 
previously operated under their own direction appear to have 
united under an emir appointed by ISIS.
    Reportedly, this criminal named Isnilon Hapilon has been in 
contact with ISIS leaders in the Middle East and seeks to 
establish an ISIS caliphate on Mindanao.
    The Islamist militant in Marawi are an elite alliance of 
Abu Sayyaf group and the Maute group, the Philippine 
organizations who have come together for this audacious and 
unprecedented attack.
    To date, over 380 Islamist militants have been killed in 
the fight, far surpassing early estimates, and the number of 
militants--I mean, at first when this first started out we were 
looking at about 250 to 300 people and it is already 380 have 
been killed in fighting with more still keeping government 
forces at bay.
    An unknown number of foreign fighters have supplemented 
militants from the Philippines. Deceased terrorists have been 
identified as Malaysian, Indonesian, Saudi, Yemeni, Chechen, 
and Indian nationals.
    The destruction has been immense. Up to 400,000 civilians 
have been displaced. Ninety soldiers and police officers have 
been killed and hundreds--and hundreds wounded.
    Large areas of Marawi have been flattened. The widespread 
destruction is the latest sign that the nature of terrorist 
activity in Southeast Asia may be changing.
    Islamist militants in Southeast Asia were previously 
focused on domestic concerns such as gaining independence and 
establishing Sharia-style governance. Many were thought of as 
little more than former for-profit criminal organizations.
    As organizations throughout Southeast Asia have pledged 
allegiance to ISIS, however, their priorities seem to be 
shifting.
    The siege of Marawi has shown that forces under Hapilon are 
interested in seizing territory and contesting government 
control similar to ISIS strategies in Iraq and in Syria.
    The Solicitor General of the Philippines has stated what's 
happening in Mindanao is no longer rebellion of Filipino 
citizens.
    It has transmogrified into invasions by foreign terrorists 
who heeded the clarion call of ISIS to go to the Philippines if 
they find difficulty in going to Iraq or Syrian. They want to 
create Mindanao as part of the caliphate.
    At the same time, Southeast Asia's youth, our Internet-
connected population, is fertile ground for online 
radicalization of ISIS specialties.
    A fragmented ISIS can inspire homegrown terrorists, send 
trained jihadists all over the world and the porous borders of 
the Southeast Asia region are especially vulnerable to both.
    The dangers stand to grow as ISIS is driven from its 
captured territory in Iraq and Syria and turns its focus 
elsewhere. Meanwhile, Southeast Asia's historically tolerant 
and inclusive brand of Islam is facing fundamentalist 
challenges as well.
    The recent electoral defeat and subsequent blasphemy 
convictions of Jakarta government official Ahok, a member of 
Indonesia's Christian minority, raised questions about the 
independence of Indonesia's secular institutions and showcased 
the rise of hardline Islamist politics.
    The spread of fundamentalism throughout Southeast Asia, 
exasperated by outside influences such as Saudi Arabia's 
propagation of Wahhabist institutions risk contributing to 
radicalization.
    The United States has a role to play and has been quietly 
supporting the armed forces of the Philippines outside of 
Marawi with intelligence and surveillance assistance.
    To date we have avoided a public role of combat or combat 
operations. As the threat in the Philippines and throughout 
Southeast Asia intensifies, we must determine what more the 
United States, in cooperation with our ASEAN partners, can do 
better to counter Islamist militancy in the region.
    The siege of Marawi underscores the Islamist terrorism by a 
generational challenge in Southeast Asia as it is throughout 
the world. Strategies to counter the rise of the militancy must 
be a central component of our Asia strategy rather than a 
secondary issue.
    Today we are joined by an expert panel--and I appreciate 
you all coming--so that we can discuss the contours of the 
threat and suggest policy options for forming a strategy so 
that we can pass this on, hopefully, to the State Department 
and to the executive branch.
    [The opening statement of Mr. Yoho follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Yoho. Without objections, the witness written 
statements will be entered into the hearing record and I now 
turn to my ranking member for any remarks he may have.
    Mr. Sherman. Thank you. Mr. Chairman, thank you for holding 
these hearings. Thank you for the clever title. Thank you for 
the comments about Saudi support not for--so much for terrorist 
organizations but for extremist Islamic clerics who lay the 
groundwork and advocate if they don't plan and conduct 
terrorist operations.
    I have had significant discussions with the foreign 
minister of Saudi Arabia who tells me they are certainly not 
doing it anymore--that at most they funded the construction of 
mosques decades ago, which now may have been taken over by 
clerics they don't support.
    So I am hoping that one thing comes out of these hearings 
and that is a letter to the Saudi foreign minister identifying 
very particular mosques and clerics and that we think are being 
funded by Saudi Arabia or individuals therein and let's run to 
ground whether or not Saudi Arabia is at this time funding an 
extremist version of Islam.
    On Monday, the Iraqi Prime Minister al-Abadi declared 
victory over ISIS in Mosul. That's a welcome development, but 
the battle with ISIS-affiliated groups in Southeast Asia, 
particularly the Philippine terrorist groups continues, 
including Abu Sayyaf and Maute, and continues in the Marawi 
area of the island of Mindanao.
    A few dozen foreign fighters have traveled from abroad, 
perhaps more than a few dozen. They include nationals not only 
from nearby Indonesia and Malaysia but also Saudi Arabia, 
Chechnya, Yemen, Morocco, Turkey.
    The ongoing fighting in Marawi has reportedly left over 500 
dead including 90 Philippine soldiers, 39 civilians and 381 
ISIS-related fighters.
    The Marawi battle illustrates that despite the 
counterterrorism successes that considerably downgraded 
Southeast Asian terrorist groups in the late 2000s and the 
early 2010s, the terrorist threat in the region may be getting 
a new lease on life and this new generation of terrorists could 
gain strength by drawing on support from ISIS.
    Southeast Asian countries continue to face threats of local 
and international terrorism. There are over a dozen armed 
Islamic groups in the region.
    ISIS has already successfully recruited about 1,000 
nationals from Southeast Asian countries to come support their 
efforts in Syria and Iraq, their so-called caliphate--we hope 
dying caliphate.
    As to counterterrorism, in the past we have seen al-Qaeda's 
influence appear through Jemaah Islamiyah, a terrorist 
organization and its affiliates, which claimed responsibility 
for the 2002 Bali attacks.
    Today, the battle for Marawi we see ISIS influence 
elsewhere, not only there but also in other parts of Southeast 
Asia.
    In Indonesia, the mujahideen Indonesia Timor MIT pledged 
allegiance to ISIS. ISIS even has a dedicated Southeast Asian 
unit, Katibah Nusantara, that is fighting in Syria.
    As smaller splinter terrorist groups create their own space 
in Southeast Asia, breaking from larger groups that may have 
been very relevant a decade ago. We need to continue to 
monitor, prioritize, and designate.
    We should continue to work with our regional partners to 
combat and eliminate terrorist organizations as well as prevent 
ISIS terrorists from returning from the countries of origin in 
Southeast Asia.
    As to our budget, we must ensure that American leadership 
is maintained particularly in Southeast Asia. The President's 
budget seems to do the opposite.
    Southeast Asia is the home of 625 million people and about 
15 percent of the world's Muslim population. American foreign 
affairs programming in this region should not be reduced but 
the 2018 budget proposal would reduce VOA broadcasting to 
Indonesia in the Bahasa language of Indonesia. That is not a 
reduction that I support.
    We should not neglect the tools that strengthen long-term 
fight against terrorism. Those are, among others, democracy, 
the rule of law, human rights, education, and development.
    Without robust State and USAID programs, Southeast Asia 
would likely be a less stable area and provide for increased 
space for terror recruitment.
    That is why more than 120, three- and four-star retired 
generals and admirals wrote to House leadership in February 
this year urging that the U.S. maintain a robust foreign 
affairs budget. Never have we heard clearer words from our 
retired military.
    I yield back.
    Mr. Yoho. Thank you, Ranking Member.
    For you guys that are here--are going to testify, we run 
our meeting a little bit different--our hearing. It is a little 
bit more informal.
    I want you to be engaged, because what we are looking for 
is solutions--solutions to bring this threat that is affecting 
all of humanity--it is a scourge on humanity--to an end.
    It is isolated right now in that one area in Mindanao. I 
mean, it is all over that whole area. But if we can bring it to 
an end, I want you to think of solutions that you can give us, 
and I have read every one of your testimonies and I am going to 
switch now to my colleague, Ms. Ann Wagner, to introduce a 
person from her state and I will take it over. Go ahead.
    Ms. Wagner. Thank you, Mr. Chairman, for hosting this 
important hearing.
    I would like to take my time to welcome Dr. Sheena 
Greitens, who, among her many accomplishments, happens to be 
the first lady of my home state of Missouri.
    Dr. Greitens holds a Ph.D. from Harvard University and a 
Master's from Oxford University where she studied as a Marshall 
Scholar. She has previously served with the U.S. Department of 
State's Policy Planning staff and is a nonresident senior 
fellow at the Brookings Institution.
    Dr. Greitens has distinguished herself as a professor at 
the University of Missouri where she has played a leading role 
in establishing the Institute for Korean Studies. Your books, 
``Dictators and Their Secret Police: Coercive Institutions and 
State Violence,'' hit the shelves last summer and it is a 
fascinating take on the foundations of authoritarian power in 
Asia.
    It is, I think, exceptional and all too rare that a busy 
mother and professional, much less one who is so involved in 
Missouri's public service--and I speak knowing something about 
all of these things--makes time to produce world class research 
on Asia's internal security forces.
    We are delighted to have you and such a notable scholar in 
the governor's mansion and I particularly appreciate your work 
on Korea and the Philippines and I look forward to our 
continued collaboration and to your testimony today. So 
welcome, Dr. Greitens.
    Thank you, Mr. Chairman.
    Mr. Yoho. Thank you, and I appreciate--again, I can't tell 
you how much I appreciate you guys taking your time out. The 
way this works--I am sure you have been here before--you got 
the timer in front of you.
    You get 5 minutes. Try to get as close to that as you can 
and I look forward to getting into the question area.
    With that, we have Mr. Thomas Sanderson, senior fellow and 
director for the Transnational Threats Project at the Center 
for Strategic and International Studies, welcome here.
    Ms. Supna Peery, research analyst for the Counter Extremism 
Project. Welcome. And then we have Mr. Michael Fuchs, senior 
fellow at the Center for American Progress.
    Look forward to hearing your testimony. Mr. Sanderson, we 
will just go down the line. Press your mic button and make sure 
it is on.

    STATEMENT OF MR. THOMAS M. SANDERSON, SENIOR FELLOW AND 
DIRECTOR, TRANSNATIONAL THREATS PROJECT , CENTER FOR STRATEGIC 
                   AND INTERNATIONAL STUDIES

    Mr. Sanderson. It is on. Excellent. Thank you.
    Chairman Yoho, Ranking Member Sherman, and distinguished 
members of the subcommittee, thank you very much for the honor 
and opportunity to testify before you today on the threat that 
ISIS poses to Southeast Asia, an issue that has gained greater 
attention since the battle in Marawi, Philippines began on May 
23rd of this year.
    This now 7-week-old conflict involves U.S.-advised 
Philippine armed forces and police and ISIS-affiliated 
terrorists groups including the Abu Sayyaf group and the Maute 
group.
    My written submission for the record covers the history of 
terrorism in Southeast Asia, touches briefly on the activities 
of Arabian Gulf states in the region and then goes into detail 
on the global threat of foreign terrorist fighters, or foreign 
fighters, in the battle at Marawi and well beyond, and the 
implications for that region and for the United States.
    My oral comments now will focus on what I see as the most 
significant issue at hand, ISIS foreign fighters and their 
presence in Southeast Asia.
    Reports from Southeast Asia find that several foreign 
fighters are among the militants that have died with reports 
stating that the casualty count shows fighters from Indonesia 
and Malaysia, nearby states, Yemen, Morocco, Saudi Arabia, 
Chechnya, and now one from Singapore, and the chairman also 
noted one from India.
    Furthermore, there are indications that between 40 and 80 
foreign fighters are in the immediate vicinity of the battle.
    For the past 2 years, my colleagues and I at CSIS have been 
investigating various dimensions of the foreign fighter threat 
and, as you all know, since 2012 more than 40,000 fighters from 
120 countries joined the battle in Syria and Iraq primarily on 
the side of ISIS.
    I would discourage anyone from thinking about killing down 
that number because more can join. That 40,000 number is not 
finite.
    An unknown number have been killed in battle. Some are in 
prison in the region or back home. But an unknown number still 
engage in battle planning and onward movements. To where, we do 
not know.
    Let me also note, as the chairman noted, there are between 
800 and 1,000 Southeast Asians that have made the visit to 
Syria and Iraq. That, again, number is not certain but it is, 
roughly, in that range.
    What we see in Marawi tells us that the grim reality is 
something else. Many who went to Syria and Iraq had no prior 
military training.
    What they did go with was a sense of purpose, a desire for 
adventure, revenge, income, and respect. Some were politically 
and religiously radicalized. Some went for the good 
compensation package.
    For those that did survive and seek to return home, they 
realized that they have few options. Most nations do not have a 
program to demobilize and reintegrate those fighters who played 
more of a support role.
    Indonesia and Malaysia do have a demobilization 
deradicalization program. The Philippines does not.
    This off-ramp to membership in a militant group is an 
important way to divide those who can rejoin society from those 
who pose a grave danger and should be prosecuted.
    The actors that we are most concerned about are those that 
receive combat training and experienced high-intensity combat 
in Syria and Iraq.
    These are terrorists who are accustomed to the rigors of 
urban warfare, who know how to build and disguise bombs, 
operate small and light arms, launch mortars and rocket-
propelled grenades, conduct secure communications with 
encrypted devices, raise and move money, manage logistics, and 
funnel images and propaganda into the social media stream.
    These conflict-hardened terrorists, if they do make it back 
to their home countries or end up in third countries, in many 
cases would face police and military with little or no fighting 
experience. It would not be a fair match.
    These violent extremists have experienced what they see as 
legitimate divinely-sanctioned fighting. They are heroes to 
their friends and many others and are unlikely to want to 
return to a lifestyle less meaningful, in their eyes, and they 
know that returning to their families and communities is not 
likely an option.
    Governments know that these terrorists have long 
unexplained absences or have even been bragging about their 
exploits in the Middle East. Back home, torture, prison, and 
execution awaits them. Again, the options are few.
    Meanwhile, U.S. and coalition-backed Iraqi forces, Kurdish 
forces, and others have made strong gains against ISIS-
controlled territory in Syria and Iraq.
    What was once an area as large as Jordan under their 
control is much smaller. At least 60,000 enemy combatants have 
been confirmed killed and ISIS revenue is falling fast, and it 
is vital for attracting, equipping, and retaining ISIS members.
    In Moscow a few months ago, a colleague and I were able to 
interview the family of Dagestani fighter who joined the battle 
in Syria before ISIS emerged and then came under their control.
    Heading back to Dagestan is not an option for this 
individual. We heard for 3 hours the contortions that he and 
his family have gone through to find a third country in which 
to find themselves and secure themselves. That means these guys 
are moving on often not back to their own home.
    Three years ago when my team began looking at foreign 
fighters, energy and attention was focused on stopping them 
from going to Iraq and Syria, on discovering and disrupting 
their facilitators at home and en route and trying to get an 
understanding of what foreign fighters were doing inside the 
so-called Islamic State.
    Their influence back home via social media was also of 
great concern. But as ISIS' fortunes changed, attention shifted 
to what foreign fighters might do next.
    The battle in Marawi, Philippines provides a sobering 
example of one of those options. Bringing the fighters' 
expertise, networks, funding, and fighting credibility to bear 
on insurgencies in other countries is appealing to some of 
them.
    Returning to their home countries or to third countries to 
stimulate moribund terrorist groups, recruit new members, and 
take revenge on governments they see as repressive extends 
their lives as heroic fighters and gives them purpose and 
status.
    Marawi is a powerful reminder of what they are likely to 
face in other parts of Southeast Asia and a wider globe when 
foreign fighters move on from Syria and the Iraqi battlefield.
    Thank you.
    [The prepared statement of Mr. Sanderson follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
                              ----------                              

    Mr. Yoho. Thank you.
    Ms. Peery.

 STATEMENT OF MS. SUPNA ZAIDI PEERY, RESEARCH ANALYST, COUNTER 
                       EXTREMISM PROJECT

    Ms. Peery. Chairman Yoho, Ranking Member Sherman, and 
members of the subcommittee, I appreciate the opportunity to 
appear before you today to discuss the threat from extremism in 
the Philippines.
    Mr. Chabot. Mr. Chairman, could she pull the mic a little 
closer maybe?
    Ms. Peery. My name is Supna Zaidi Peery. I am a strategic 
policy analyst at the Counter Extremism Project, a not for 
profit nonpartisan international policy organization that works 
to combat the growing threat from extremist ideology.
    Fears of growing ISIS activity in Southeast Asia became all 
too clear over the siege on the city of Marawi that began on 
May 23rd.
    Despite President Duterte's statements yesterday that the 
siege is likely to end within 10 to 15 days, he conceded that 
ISIS remains a long-term threat to the Philippines and the 
region.
    In addition to the domestically radicalized Muslim youth by 
Abu Sayyaf and the Maute group, Philippine intelligence 
believes that some of the ISIS-linked fighters in Marawi were 
foreign fighters from Indonesia, Malaysia, and the Middle East, 
as mentioned already.
    The presence of foreign fighters reinforces the argument 
that pro-ISIS propaganda has the power to unify militants 
across borders in Southeast Asia, raising the possibility that 
the Philippines could become an ISIS hub if extremism in 
Mindanao is not addressed immediately.
    ISIS is the most successful brand of Islamist extremism 
globally because it has identified a formula to connect its 
fundamentalist principles to proactive action but its 
adherents.
    It has been effective and consistent in spreading its 
propaganda over the Internet and via social media platforms in 
numerous languages without much interference from tech 
companies or effective challenges from progressive Islamic 
organizations online, which we often call counter narrative.
    In the Philippines, ISIS ideology filled the void left by 
the death of Abu Sayyaf group founder and charismatic cleric 
Abdurajak Janjalani.
    There is unfortunate continuity in this statement since the 
ASG under Janjalani and ISIS are both al-Qaeda offshoots 
ideologically.
    Janjalani fought in Afghanistan in the 1980s under an al-
Qaeda Mujahideen Abdul Rasul Abu Sayyaf for whom Janjalani 
named his terrorist organization once he returned home to the 
Philippines in 1989.
    ISIS rhetoric now replaces Janjalani's voice to radicalize 
youth in Mindanao along with other extremists like the Maute 
group, whose leader studied in Egypt and Jordan before 
successfully recruiting via social media and through the 
Islamic schools in Mindanao itself.
    ISIS ideology targets Muslims in person online by preying 
on existing grievances and co-opting them, offering a singular 
solution based on the distinctive identity marker of faith 
without requiring an adherent to understand the faith itself.
    Examples include the oft-cited identity issues of lone 
wolves in the West and secular separatist movement turned 
Islamist, like Chechnya in the 1990s and '80s, or even economic 
marginalization as in the Philippines today on the island of 
Mindanao.
    A critical bridge connecting root causes to violence in the 
name of faith is the proliferation of proselytizing within 
Muslim communities by individuals or organizations often 
labelled orthodox, fundamentalist, or puritanical.
    Professor Mohammed Osman of the S. Rajaratnam School of 
International Studies in Singapore argues that this 
indoctrination toward fundamentalism needs to be addressed by 
governments wanting to combat extremism.
    For example, in Malaysia he notes that the increased 
fundamentalism of the community has damaged the coexistence 
between Muslims and non-Muslims present for centuries in the 
region.
    That attitude is problematic, he states, because once one 
starts dehumanizing one group by saying they are deviant, 
infidels, or hypocrites, it makes it easier for people to be 
influenced by the ideas of ISIS, which advocates the murder of 
Muslim religious minorities, non-Muslims, and homosexuals, as 
examples.
    Consequently, the U.S. must expand its counter extremism 
strategy to push allies like the Philippines to embrace a two-
prong strategy beyond military policies, which are important.
    First, we must work to remove extremist propaganda online 
and on the ground, especially among student organizations and 
schools.
    Second, we need to replace the extremist propaganda with 
counter narrative ideology and messaging formulated by moderate 
and progressive Muslim organizations. To succeed, these ideas 
must be implemented domestically and regionally as well as 
online.
    The U.S. can assist the Philippine Government in their 
effort to remove extremist propaganda from the Internet and 
social media platforms by working with them to develop policy 
and by helping them discuss the issues within the private 
sector and within the tech industry specifically.
    Indonesia is of particular importance, given that it hosts 
about 70 percent of pro-ISIS Web sites in the region and that 
information--the visuals, the YouTube videos--it reaches the 
Philippine population as well as the rest of the region.
    Second, the U.S. can advocate for the Philippine Government 
to support community efforts to prevent radicalization because 
community leaders rather than government are possessed with the 
credibility to build grassroots counter extremism programming 
that focuses on educating the public on the values underlying 
pluralism, tolerance, and community building across race, 
ethnicity, sect, and gender.
    The Philippine Center for Islamic Democracy is one such 
organization that deserves government and international 
support. The center has been working with the Muslim religious 
sector, particularly female religious scholars and madrasa 
teachers to develop capacities and competencies and 
strengthening their role as advocates for peace and human 
rights.
    For this purpose, the center has developed human rights 
training within a Sharia framework and the peace education 
manual.
    Regionally, we can also support cross collaborations with 
organizations like the center to build counter narrative 
information books and content that can go online as well.
    Regionally, like-minded organizations include Nahdlatul 
Ulama and the Wahid Institute in Indonesia, Sisters in Islam in 
Malaysia, which specifically Sisters in Islam focuses on 
promoting universal human rights including advocacy for women 
through an Islamic lens. Sisters in Islam has challenged in the 
past the legality of child marriage and polygamy, for example.
    It is critical to legitimize peaceful debate within Muslim 
communities and protect balance and progressive grassroots 
voices.
    The U.S. can encourage allied governments in Southeast Asia 
to recognize grassroots organizations as a source of strength 
to counter extremism and protect their right to speak and 
engage with the public.
    [The prepared statement of Ms. Peery follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
                              ----------                              

    Mr. Yoho. Thank you.
    Dr. Greitens.

   STATEMENT OF SHEENA GREITENS, PH.D., ASSISTANT PROFESSOR, 
                     UNIVERSITY OF MISSOURI

    Ms. Greitens. Thank you very much.
    Chairman Yoho, Ranking Member Sherman, distinguished 
members of the subcommittee, it is an honor to appear today to 
discuss the threat of terrorism in Southeast Asia.
    My remarks will focus on American security cooperation with 
the Philippines, the U.S. ally most affected by this threat. 
For time's sake, I will focus today on the policy 
recommendations that are contained in my longer written 
testimony.
    Before that, there are two brief points that may be useful: 
First is that the Philippines has a more complex security 
environment than most other U.S. allies in Asia because of its 
internal challenges. Manila has always had to balance between 
external defense and internal needs, which include both 
disaster relief and counter insurgency or counter terrorism. 
Under the previous President, the Philippines had begun to 
shift toward a more external maritime focus, but Duterte's 
presidency, combined with recent developments, are returning 
them toward a more traditional inward focus.
    Second is that the Philippines is an incredibly pro-
American place. There is, however, a long-running concern, 
particularly on the Philippine left, about potential 
encroachment by the United States on Philippine sovereignty, 
and that has directly affected our security cooperation and 
basing agreements in the past. Our alliance generally fares 
best when we acknowledge this domestic political reality.
    In the past two decades, U.S.-Philippine security 
cooperation has focused on counter terrorism and, most 
recently, on maritime security.
    As we all know, we are here today because in the past year 
or so concerns about terrorism have increased. Those concerns 
center on the so-called black flag militant groups in the 
southern Philippines who have sworn loyalty to the Islamic 
State and achieved recognition from them, as well as on the 
ISIS-affiliated fighters who are returning to the region. 
Today, these ISIS-linked groups in Marawi have held territory 
in an urban siege that has lasted almost 2 months and claimed 
an estimated 500 lives.
    Abu Sayyaf has also increased its kidnapping for ransom 
operations, which have raised substantial revenue for the 
organization and jeopardized the safety of trade in waters 
around the southern Philippines.
    Today, I would like to offer seven primary recommendations.
    First, Congress can play a real positive role in 
strengthening America's security cooperation with the 
Philippines. Despite Duterte's rhetoric, the Philippines 
remains strongly pro-American, and congressional engagement 
could productively focus on places like the legislature, the 
departments, the military, local governments, and civil 
society, all places where the value of the alliance with the 
U.S. is broadly recognized.
    Second, Congress can build on broader outreach to ASEAN to 
show that U.S. support for the region is strong and bipartisan. 
I commend the subcommittee's activities on that front thus far 
and hope that Congress continues its engagement in this 
economically and strategically vital region.
    Third, the United States can continue or consider expanding 
maritime security assistance. Congress played an important role 
in establishing the Maritime Security Initiative in Southeast 
Asia, and it is important that, even as the Philippines 
confronts intensifying internal threats, it does not ignore 
external defense needs.
    Maritime security assistance can improve Manila's ability 
to address multiple challenges at once--disaster relief, 
counter terrorism, and places like the South China Sea. It also 
allows Congress to support our two countries' shared security 
goals while remaining a strong voice for human rights and the 
shared values that underpin the alliance between our two 
democracies.
    Fourth, if the Philippines requests, the United States 
should examine its options for reactivating formal counter 
terrorism cooperation initiatives such as the previous Joint 
Special Operations Task Force Philippines based in Zamboanga. 
Our military is already providing technical assistance in 
Mindanao, so clearly defining the parameters of that engagement 
and its compatibility with the Philippine constitution can help 
avoid domestic blowback, and keep the focus where it 
fundamentally needs to be--preventing ISIS from establishing a 
foothold inside the territory of a U.S. Asian ally.
    Fifth, we can support Manila's cooperation with other U.S. 
security partners. Trilateral patrols, which have recently 
begun with Indonesia and Malaysia, are an important step and 
will be more meaningful as the Philippines continues to improve 
its maritime capacity. That is a place where partners like 
Japan, Australia, and South Korea can all play an important 
role.
    Sixth, the United States can identify productive forms of 
economic engagement, including regional tools for counter 
terrorism finance. Like maritime capacity building, financial 
tools can address multiple priorities at once, such as 
counteracting North Korea's money laundering and revenue-
generating activities in the region. It will be important to 
limit the flow of funds, especially now, from ISIS agents in 
the Middle East to groups in the Philippines and Southeast 
Asia.
    Seventh, the United States should monitor two issues that 
are likely to affect recruiting and support for ISIS-linked 
groups throughout Southeast Asia. First is the peace process in 
Mindanao, where the collapse of the 2014 agreement has 
contributed to individuals and factions splintering away from 
the Moro Islamic Liberation Front toward these more radical 
groups. Second, the treatment of the Muslim population in Burma 
could well become a recruitment tool and a rallying cry for 
Islamic militants region wide. The U.S. needs to be carefully 
monitoring these issues and supporting effective, inclusive, 
long-term solutions.
    Thank you.
    [The prepared statement of Ms. Greitens follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
                              ----------                              

    Mr. Yoho. Thank you, and I appreciate the passion in that. 
That was good.
    And now we will go to Mr. Fuchs, if you would.

   STATEMENT OF MR. MICHAEL FUCHS, SENIOR FELLOW, CENTER FOR 
                       AMERICAN PROGRESS

    Mr. Fuchs. Great. Thank you, Mr. Chairman, Ranking Member 
Sherman, and distinguished members of the subcommittee. Thank 
you for the opportunity to appear at today's important and 
timely hearing.
    Terrorism in Southeast Asia is a serious challenge and a 
direct threat to the lives of innocent civilians in the region 
and to U.S. national security interests.
    The United States has a direct interest in working with the 
countries of Southeast Asia to counter terrorist threats and 
can do so most effectively through building capacity, 
supporting democracy and human rights, and investing in the 
necessary diplomatic and development tools.
    Terrorism has long been a threat in Southeast Asia and the 
potential return home of Southeast Asian fighters who have 
fought in Iraq and Syria are raising fears that they might 
exacerbate an already dangerous network of terrorist groups in 
the region.
    The Governments of Indonesia, the Philippines, Malaysia, 
and others, including the United States, are focused on 
countering these threats.
    There is much work to be done and we must be vigilant. This 
threat, while dangerous, is a threat that we can tackle.
    With focus and practical efforts, the United States can 
help these countries make real progress. There are many 
challenges that the United States and the countries of the 
region face in combatting this threat.
    Governments in the region are often hamstrung by lack of 
development in governmental capacity, few economic 
opportunities, weak government institutions and rule of law, 
and porous borders are just some of the many obstacles the 
countries of the region are up against.
    The United States too faces difficulties. An over 
militarized CT approach can be counterproductive where rhetoric 
and actions that feed a ``us versus them'' dynamic hurts U.S. 
counterterrorism efforts and, likewise, a lack of investment in 
resources can hamstring U.S. policies.
    There are a series of steps that the United States can take 
to make more progress and I, too, have seven recommendations.
    First, the United States must strengthen its diplomatic and 
development capacities in Southeast Asia including through more 
personnel and resources. U.S. diplomats are best equipped to 
lead the charge.
    They often know best what is happening in these countries, 
have the best relationships with foreign governments and are 
best positioned to develop locally-tailored strategies to 
prevent terrorism.
    Gutting the budgets and State and USAID, as has been 
proposed by the Trump administration, will unilaterally disarm 
U.S. counterterrorism policy.
    Second, the United States must prioritize support for 
democratic rights-respecting governments and societies in 
Southeast Asia.
    The stronger the democratic institutions, rule of law, and 
tolerance in these countries, the more effective they will be 
at preventing terrorism and the more resilient they will be in 
weathering any threats.
    Third, the United States needs to support the institutional 
capacity of partner governments. We should look carefully at 
how best to support countries developing legal frameworks for 
combatting terrorism and training law enforcement and 
intelligence officials, to name just a couple of examples.
    Fourth, the United States should invest in economic growth 
and development. While the region overall has grown 
economically, millions of people remain impoverished and living 
in communities cut off from economic opportunities, creating 
environments where people are too often susceptible to 
terrorist propaganda.
    Education and cultural exchanges are crucial here. We 
should be inviting young leaders from around the world to learn 
in the United States, not making it harder for them to come to 
this country.
    Fifth, the United States should use the military sparingly 
and judiciously. The U.S. military can help prevent terrorist 
acts when used carefully in conjunction with other tools, as 
has been proven in the southern Philippines.
    But at the same time, we must be aware of the sensitivities 
of heavy-handed U.S. presence in the region.
    Sixth, the United States should support regional 
international efforts that can strengthen cooperation amongst 
the countries of Southeast Asia.
    From ASEAN to the Global Counterterrorism Forum to working 
with other partners like Japan and Australia, there are 
numerous opportunities for the United States to support 
regional counterterrorism efforts in Southeast Asia.
    And seventh, the United States should engage with the 
countries and peoples of the region as partners instead of 
lecturing and criticizing.
    People around the world look to the United States for 
leadership and to uphold the universal values. And so the 
United States must act in both word and deed to strengthen 
those universal values, not to foster perceptions of an ``us 
versus them'' mentality.
    Thank you very much.
    [The prepared statement of Mr. Fuchs follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
                              ----------                              

    Mr. Yoho. Thank you, and I appreciate everybody's 
testimony, and we are going to break rank a little bit here, 
and I am going to let Ms. Wagner go first because she has got 
another meeting that she has too and then we will let the 
ranking member go. Go ahead.
    Ms. Wagner. Thank you very much both to the chairman and to 
the ranking member for their courtesy. I have got a press 
conference on human trafficking with the Speaker in about 12 
minutes.
    So the conflict in Marawi is highly concerning and my heart 
goes out to all those who have lost their lives and been 
displaced.
    It is clear that improving U.S. counterterrorism engagement 
with our ASEAN partners and allies is critically important.
    Dr. Greitens, you mentioned in your statement the June 
launch of joint patrols and information sharing between 
Indonesia, Malaysia, and the Philippines.
    Increased regional cooperation has the potential to be 
helpful. How can the United States better support regional 
counterterrorism and border control efforts?
    Ms. Greitens. Thank you very much.
    You know, we are seeing the very beginning of some of these 
forms of multilateral cooperation, particularly, as you 
mentioned, the joint patrols, which are only a couple of weeks 
old. One of the things the United States can do is continue to 
support the intelligence, surveillance, reconnaissance 
capabilities that would guide and support those patrols and to 
continue to build, via assistance to the Philippines, its 
overall maritime capacity.
    My general sense of these patrols is that the capacity of 
the Philippine Government in the Sulu Sea and around those 
southern waters is an area that particularly needs to be beefed 
up. That is an area where the United States, along with other 
U.S. security partners like Japan, South Korea, and Australia, 
can be particularly helpful.
    Ms. Wagner. Great. Thank you very much.
    Mr. Sanderson and Ms. Peery, as you know, many Indonesian 
officials have been educated in Saudi-funded schools. There are 
multiple strains of Salafi ideology, as I understand it.
    How does Salafi ideology express itself in Indonesia and 
how influential is Wahhabism? Mr. Sanderson.
    Mr. Sanderson. That is not an area of expertise of mine but 
let me indicate from field work that I have conducted in the 
region among all these countries is that Indonesia in 
particular has a very large moderate mainstream Muslim 
community. They have large----
    Ms. Wagner. Are there moderate political and jihadi strains 
involved or----
    Mr. Sanderson. Absolutely. I mean, in every country you 
would find those. Indonesia happens to be an excellent example 
where you have very large communities that have rejected those 
more extreme intolerant interpretations of Islam.
    Groups like Nahdlatul Ulama Muhammadiyah and other 
communities group are--have rejected that. You saw it in the 
response to the 2002 Bali bombing where there was a rejection 
of JI's vicious attack that killed 202 people.
    So that works to our advantage in the region. But you do 
have the influence of more extreme forms of Islam that have 
come in from the Arabian Gulf, that have been pushed through 
schools and through mosques, and that is of concern to us.
    But let me turn to my colleague for more details on that.
    Ms. Wagner. Ms. Peery.
    Ms. Peery. Thank you.
    I think the issue of Gulf State funding in general, non-
Arab countries with Muslim majority populations is an issue 
because when we look at the way various Muslim communities 
practice Islam, it varies greatly and I can full well 
understand and respect the confusion that there is when people 
are trying to understand that spectrum and try to create policy 
with that in mind.
    But to your question specifically, the foreign funding that 
comes into countries like Indonesia are not only spent 
necessarily to construct mosques or create Islamic schools but 
they can go to civic organizations like a women's club to do 
anything that is not really on its face a religious issue.
    But that coming together, the way they engage, what they 
talk about usually is--builds on a foundation of a very, very 
traditional fundamentalist way of life and that is what is 
advocated through conversation, socializing, and, for example, 
in Ramadan the activities that you would have that bring 
communities together.
    I have had conversations that--take this with a grain of 
salt because it is anecdotal--but people don't want to talk 
about the fact that, for example, if the Indonesian Government 
wants to push back on funding that they are not comfortable it 
has been alleged that the Saudi Government will then come back 
and say, well, we won't give visas to Indonesians that want to 
come on a pilgrimage to Saudi Arabia.
    Now, for practising Muslims like my mother, even, going on 
pilgrimage is a big deal. So for a Muslim-majority country 
government to do something that can be perceived in the public 
space as preventing Muslims from practising their faith, the 
nuances of the issue won't be discussed.
    It will become another point that extremists can grab on to 
and say, this government is not allowing you to be a good 
Muslim.
    Ms. Wagner. Thank you. I appreciate it.
    Mr. Sanderson, there have been reports of Saudi Arabia 
collaborating with Indonesia on efforts to prevent 
radicalization and King Salman visited Indonesia this spring.
    How effective do you think such deradicalization programs 
are and is there a role for the U.S. in promoting peaceful 
ideologies?
    Mr. Sanderson. The Government of Saudi Arabia does not have 
any interest in sponsoring groups or movements that would then 
target its own government, which they do.
    So what the government may do bilaterally in this case does 
not always reflect what happens at a different level among 
clergy, among wealthy individuals who want to fund more 
conservative ideology, more conservative mosques, more 
conservative madrasas.
    So I applaud Saudi Arabia's effort to work with the 
Indonesian Government. I think that is a good thing to do. But 
that is not the only channel of influence and money that comes 
from Saudi Arabia.
    A lot of that comes under the table or it comes privately 
and I think that is important and that is what we should focus 
on.
    I think the U.S. has a role, certainly, in promoting a 
range of voices and making sure that there are multiple sources 
of information and interpretations available to citizens of 
countries like Indonesia.
    Ms. Wagner. All right. Thank you, Mr. Sanderson.
    I yield back, Mr. Chairman. Thank you for the time.
    Mr. Yoho. Thank you, Ms. Wagner.
    We will go to the ranking member, Mr. Sherman.
    Mr. Sherman. We talk to the Saudis. They say they are not 
doing anything to promote the extremist views, and I want to 
draw a distinction between intense orthodox Muslim on the one 
hand and Islam that has been perverted by those who teach 
hatred or terrorist acts against those they disagree with.
    If a mosque says five times a day means five times a day, 
no matter what, that doesn't hurt anybody.
    If it says fast, continue the fast until the sun goes down 
and even if there's an ember and better wait another 20 minutes 
just in case, that doesn't hurt anybody.
    So I am focused here on the madrasas and mosques that teach 
or preach a hatred and the wisdom of engaging in violence 
against those they disagree with.
    Ms. Peery, you talk about Saudi Arabia pushing Indonesia to 
have the right to fund certain extremist organizations. Is that 
only anecdotal or do you have the facts that would allow me to 
confront the Saudi Government with that?
    Ms. Peery. Unfortunately, so far only anecdotal. But----
    Mr. Sherman. Then I ask every witness here to try to 
furnish specific instances where there is an organization--a 
mosque, a madras, or other organization that you then identify 
has engaged in a particular act of preaching or teaching hatred 
or terrorism so that we can turn that to the Saudis and say, 
are you funding any of these.
    I would especially want you to highlight those that you 
have any evidence that the Saudis are in fact funding. I get 
all these anecdotal reports, then I get a denial, and then I go 
on to another subject.
    Does any witness here have an example of an entity in 
Southeast Asia that isn't a terrorist group but which preaches 
or teaches hatred or violence? Ms. Peery.
    Ms. Peery. There is an organization called Hizb ut-Tahrir 
which is not specifically connected to Saudi Arabia or any one 
country that funds any type of extremism or fundamentalism. 
But----
    Mr. Sherman. So you are saying that this is an organization 
doing things on the ground in Southeast Asia?
    Ms. Peery. Yes, as well as 40 other countries.
    Mr. Sherman. This organization is funded by whom?
    Ms. Peery. Multiple sources, apparently. But the issue with 
Hizb ut-Tahrir is--for example, there is even a chapter in the 
United States.
    I have attended one of their events maybe 2 years ago in 
Virginia where they are very comfortable with the headline of 
the conversation being pro-caliphate or caliphate in the U.S. 
or something like that. We are lucky in the United States 
that----
    Mr. Sherman. And you are using the term caliphate----
    Ms. Peery. Islamic State, specifically. I went there just 
to see what kind of audience comes and I was very happy to say 
three people, if that, and they didn't look particularly into 
the topic.
    But if you look at Hizb ut-Tahrir in Indonesia, they have 
school organizations. They send pamphlets out. They have 
conferences or book clubs and Indonesia only now----
    Mr. Sherman. And we don't know who funds them but we think 
that Saudi individuals or government might?
    Ms. Peery. I don't think it is Saudi specifically, no. But 
it----
    Mr. Sherman. Well, I don't--so you--do you think their 
funds include donors from the Government or citizens of Saudi 
Arabia?
    Ms. Peery. It is possible.
    Mr. Sherman. Okay. I would ask you to document for the 
record how this organization preaches or teaches hatred, 
support for a caliphate.
    Ms. Peery. I point to that example.
    Mr. Sherman. I mean, when I say support for a caliphate I 
don't mean, like, the peaceful union of----
    Ms. Peery. Right.
    Mr. Sherman [continuing]. Adjoining predominantly Muslim 
states. I mean, North and South Yemen joined together and that 
is fine. It hasn't worked out so well but it is not----
    Ms. Peery. If I may, I just mentioned Hizb ut-Tahrir to 
make the point that it is one of the most organized and most 
expansive----
    Mr. Sherman. Okay.
    Ms. Peery [continuing]. In terms of reach.
    Mr. Sherman. Does any other witness have specifics here on 
organizations that teach or preach hatred?
    I will move on to another subject--broadcasting. How 
important is Voice of America and other U.S.-paid broadcasting 
to achieving the goals we are trying to achieve in Southeast 
Asia?
    Mr. Sanderson.
    Mr. Sanderson. I made a visit many years ago in which I 
interviewed several militant groups in Indonesia, the 
Philippines, and other areas and it also included engaging with 
the topic you are discussing here now in terms of putting a 
message out there to promote American values, to promote 
democracy, to give people alternative sources of information.
    There is a broad, broad community of individuals in these 
countries that are eager consumers of this information but the 
groups that we are most concerned with have long ago rejected 
any kind of message coming from the United States from their 
own Government, from moderate imams in their communities.
    So when you speak of the influence of Voice of America, it 
is influential on people who may be too young to make a 
decision at this point. They haven't been influenced yet.
    Mr. Sherman. Yes. I mean, obviously, somebody that----
    Mr. Sanderson. But the folks we are concerned about--those 
being recruited into battle----
    Mr. Sherman. I am concerned with the 10-year-olds who might 
go one way or another when they are 15 or 20.
    Mr. Sanderson. I don't know how appealing Voice of America 
is to a 10-year-old anywhere in the world, to be honest.
    Mr. Sherman. And their--and their parents.
    Mr. Sanderson. Yes, so it could get to their parents. Their 
parents could influence them but----
    Mr. Sherman. Right. Does anyone else have any comment?
    Mr. Fuchs.
    Mr. Fuchs. Yes. I would just say, agreeing in part with my 
colleague. I would also point out that I think broadcasting 
mediums like VOA are part of a broader strategy that the United 
States and other countries I think can use very effectively to 
show people of the region, first of all, what U.S. values are 
but also as alternative mediums for getting information, as Mr. 
Sanderson pointed out.
    I think similarly, just as I mentioned in my testimony, 
vehicles like cultural educational exchanges that the United 
States supports in the region are vital. I understand that they 
may not be on a level of hundreds of thousands of people.
    But even so, on the level of hundreds of people and 
sometimes thousands of people they have ripple effects in their 
communities. So I think that supporting those sorts of efforts 
are very valuable.
    Mr. Sherman. Thank you. My time has expired.
    Mr. Yoho. I kind of want to just set the stage. You guys 
all probably know--I am sure you know this very well.
    But when you look at the Asia Pacific region and you look 
at nation states--archipelago nations like the Philippines has 
7,000 islands, Indonesia 17,000-plus.
    I was reading where the government really doesn't know how 
many. I would hope they would. But when you look at that land 
mass with that much separation between continuity of a country, 
I don't know how you police that.
    So it is ripe for the development of any kind of a 
movement. It could be peaceful but in this case we are looking 
at the growing threat.
    I have got so many different questions and it is you and I 
so we are going to have fun and you guys will have to tolerate 
us, if you will, please.
    But when you look at the land mass and just the logistics 
problem of policing, it just adds to the potential terrorist 
threat than can affect not just that region but the whole 
world. We've got more displaced people today than we have since 
World War II and now we are adding another 400,000 displaced 
people just on the island of Mindanao. So this is something 
that we have to take very seriously.
    It is something we have to get under control, and one of my 
first questions is what have we learned from Afghanistan and 
Iraq with us going in there militarily, without taking in the 
culture, the norms of a society, tribal communities in the 
Middle East, what have we learned from there?
    Because in Robert Gates' book that was one of the downfalls 
that we went in there--we were going to show them how America 
does it without taking into consideration what the people of 
those countries want. Does anybody want to tackle that?
    Mr. Sanderson.
    Mr. Sanderson. Thank you, Mr. Chairman.
    Let me first indicate or suggest that our familiarity with 
the cultures in Southeast Asia is better than it was with 
Afghanistan for certain.
    It doesn't mean it is perfect but we have, of course, had a 
long history in the Philippines. We have a good relationship 
with Malaysia and Indonesia.
    So we are more familiar with those nations. We have had 
bilateral exchanges, multilateral exchanges with them on law 
enforcement, military, civilian levels. So we are in better 
shape there. But nonetheless, you still have to work with your 
local partners.
    What we have learned in Afghanistan is legion--well, I hope 
we have learned it. But what we have observed is quite 
comprehensive.
    One of the most important things, in consideration of your 
comment, is it is not easy or effective to work with corrupt 
governments. If we do not have good partners on the other side, 
and we have a mixed bag here in Southeast Asia, then we will 
not be that successful.
    Also, you mentioned the number of islands, 23,000-plus 
among those two. One thousand islands in Indonesia are 
inhabited, 600 permanently inhabited.
    So there is a lot of space where these guys can go and go 
various activities. However, they do need infrastructure in 
order to carry out activities.
    So not all of those places are hospitable even to militant 
groups. But it is a big space. Encouraging more activity in the 
maritime space is excellent, as Dr. Greitens pointed out, and I 
hope we will do that.
    Mr. Yoho. Okay.
    Dr. Greitens, let me move to you. Reading your testimony 
here, from 2002 to 2015, the U.S. deployed several hundred 
special operations personnel to southern Philippines for 
counter terrorism purposes.
    Why was that not effective? Why--I feel like this has kind 
of just been off the radar. I am sure there is a select few 
that were there that were aware of this. But it seems like from 
a U.S. foreign policy standpoint, this is something that has 
kind of bypassed us and it is, like, uh-oh, we now--now we have 
to catch up.
    Why was that not effective in what we are doing? You know, 
and I will take just the number of insurgents we thought that 
were in Marawi.
    It was, what, 200 to 300--now we know it is over 400 or 
500, and there is no telling how many it is going to be. What 
is your thoughts on that?
    Ms. Greitens. Thank you.
    Sir, I think that the decision to wind down the task force 
was a product of several different factors. One of which was an 
estimation that perhaps the task force had been more successful 
in its primary mission, which had to do more with Abu Sayyaf 
than what was going on on the land.
    The Joint Special Operations Task Force Philippines was 
principally dealing with Abu Sayyaf. At the time there was also 
a peace process underway in Mindanao, and there was an 
agreement reached in 2014, the year before the task force 
terminated in February 2015, I believe.
    And so at the time, things in Mindanao looked like they 
were perhaps coming together a little bit better than they 
were. So that is one factor that I think affected the decision. 
As I know that you are aware, Secretary Mattis has stated that 
perhaps that decision was premature.
    But the other factor that we have to think about is that 
what's happened in the Middle East has produced displacement 
effects into Southeast Asia. So we are also seeing that as 
pressure is exerted against Islamic State in the Middle East, 
that the Philippines has become more appealing. These groups 
that splintered away from the MILF, some of whom have been in 
the lead, really, in Marawi, are both a little bit different 
and driven by different factors than were the principal 
emphasis for the Joint Special Operations Task Force 
Philippines.
    But, as I noted in my testimony, if the Philippine 
Government recommends it, that is something the U.S. should at 
least be willing to consider, among a range of other options.
    Thank you.
    Mr. Yoho. That is what we need to be prepared for because 
as these radicals, the terrorists, come back over, the fighters 
come back over, being displaced from Iraq, Syrian, wherever, 
that they are going to come there and there is going to be a 
coalition or they are going to coalesce together and it is 
going to form a stronger--it is going to be ISIS Part II, and 
that is what I think we all need to be concerned about and that 
is what we are trying to prevent.
    So I am going to go to you, Ms. Peery. One of the questions 
I wanted to ask you is about the Internet and social media and 
how it is all interconnected.
    How could the U.S. Government, working with the regional 
governments, work with social media and other technological 
companies to reduce terrorist groups' ability to leverage 
social media platforms to spread their extremist messages? Do 
you have any recommendations on that?
    Ms. Peery. I think there needs to be encouragement to have 
a collaboration between the government, specifically its law 
enforcement arms and its intelligence services to work with the 
private sector to look at what the infrastructure specifically 
looks like.
    As I mentioned in my testimony, for example, if Indonesia 
has 70 percent of the servers that serves--that proliferates 
the information in the entire region, that is an opportunity 
for the Philippines to go directly to Indonesia and have a 
conversation.
    It can be as simple as getting them to talk to each other 
to understand what information they have, what these--where the 
companies are that run the servers, whether there is an 
opportunity to further that collaboration with companies like 
Facebook and Twitter, which are saying more and more that they 
are willing to take down extremist information and propaganda.
    The second part of that, as I mentioned also in my 
testimony, is taking down extremist propaganda is only half of 
the problem.
    You have to replace it with an understanding of Islam that 
not only talks about tolerance and pluralism, excuse me, but 
also rejects ISIS propaganda point by point, and that is 
something that only the local governments within the region can 
do if they support the grassroots organizations in the 
respective countries.
    Mr. Yoho. All right.
    And when you look at it, it just seems like such a daunting 
task. You have got the 23,000 islands or whatever it is--to try 
to police that, and you have different nations in there, 
different rules of law, different levels of the rule of law.
    How do you--how do you police that, and I don't know if you 
can take an island like Mindanao and just say, we are going to 
shut down the Internet.
    I know this is getting broadcast and I am going to--people 
are going to say I am against First Amendment. I am not. We are 
trying to get something under control that if we don't get it 
under control we are going to be fighting for generations and 
generations, and certainly we have seen that in the Middle 
East.
    Mr. Fuchs, I wanted to ask you, because one of the things 
that we learned and you had recommended it here was in one of 
your opening statements was that in the long run, managing the 
security challenge and preventing it from growing into a more 
direct threat to the U.S. interests above all else requires 
capable governments--I think we are all in agreement with 
that--that follow the rule of law, prioritize sustainability 
and equitable economic growth strategies and which protect the 
values of human rights and tolerance and work to strengthen 
democratic institutions.
    This is something I have struggled with for years in 
Foreign Relations because we all agree with that. I mean, those 
are the founding principles, the core values of our country 
and, of course, it has taken us over 200, 300 years to get to 
this point and we have fought several wars to protect these 
rights, number one, to get them and to protect them.
    When you go into a country, a foreign country--and 
certainly we learned this in the Middle East--to instill our 
values and say this is a part of the process, I would like to 
hear your thoughts.
    Should that be at the beginning or should that be the goal 
and bring that country to those beliefs as success happens?
    Because what I see is the foreign policies of the past, we 
put these conditions and say this is the only way we are going 
to help you if you do these things, and put that up here 
instead of focussing on peace, security, rule of law, and good 
governance.
    What are your thoughts on that and how can we do that 
different and yet accomplish that, say, maybe over a 5- to 10-
year goal if we are working in that direction? I think 
everybody would be better off.
    Mr. Fuchs. Absolutely. I think that is a great question.
    I think the reality is that you have to do all of it at 
once, unfortunately, as difficult as it is.
    I think that one of the things to recognize about Southeast 
Asia as compared to, say, the Middle East or some other places 
is that over the arc of the last few decades we have actually 
been dealing with a better and better situation on that time 
span.
    These are countries that have become more democratic, 
transitioned for authoritarian to democratic, in many 
instances.
    So, for instances, in a country like Indonesia we actually 
have a partner government that is relatively capable in certain 
aspects and that we can work with on a lot of these very, very 
challenging issues.
    The Philippines, I will say, which has been up and down, 
right now is a much more difficult task and I think is a good 
example of exactly the challenge that you are raising here 
because with President Aquino up until last year, the United 
States I think was able to support a lot of aspects of Filipino 
policy that would get at the roots of terrorism in the region 
including strengthening anti-corruption efforts, growing of the 
economy, which I think are important aspects of that.
    But with President Duterte, whose interests and policies 
are quite different--his respect for human rights seems quite 
low, frankly, in my estimation--it makes it much more difficult 
for the United States with at the one hand to make sure that we 
are partnering with him and his government to go after 
terrorist groups and other security threats while at the same 
time not condoning the sorts of heavy-handed tactics that he 
has been using domestically in his fight against drugs.
    Mr. Yoho. I just want to end with this before I go to my 
colleague over here, Mr. Connolly, it was nice to see that 
President Trump called the leaders of those nations and that 
Vice President Pence went down there, and then Secretary 
Tillerson has put an emphasis on that area and General 
participating in the Shangri-La Dialogue.
    The message that I want to come out of this hearing today, 
out of this committee, that goes out, that is being broadcast 
is that America is back and our focus in on the Asia Pacific 
region and we are focussing on economics, trade, national 
security, and, as you've brought up multiple times, cultural 
exchanges because I think that is the one missing link that we 
haven't done in the Middle East like we should have and that is 
an emphasis that we want to put on that.
    With that, I am going to turn to my good friend, Mr. 
Connolly from Virginia.
    Mr. Connolly. I thank the chair, though I must say I hardly 
think America is back. I think in the brief 6 or 7 months of 
this administration we have done nothing but retreat including 
from this area.
    Nothing is more catastrophic, starting with the retreat 
from the Trans-Pacific Partnership. It creates an enormous void 
in this region and gives enormous opportunities to our rival, 
China.
    Maybe some think that is a great leap forward. I think it 
is a great leap backward and definitely not in U.S. interests, 
and the proof of that was within 1 week Beijing convened a 
meeting in Beijing of all the remaining TPP partners to see if 
they could carve out a trade agreement that circumscribed that 
part of the globe but without us and without our standards.
    I also think it was an enormous retreat and again gave the 
Chinese in this part of the world an enormous diplomatic 
advantage in withdrawing unilaterally from the Paris Climate 
Accord.
    We are now in the happy company of two countries exactly--
Nicaragua and Syria. What a proud moment for the United States. 
If that is called we are back again, I would rather not be.
    So I think there are other points of view about what has 
happened in this brief period of time and I honestly believe 
that those two things actually will be seen by history akin to 
our refusal to ratify the Treaty of Versailles that most 
certainly helped precipitate a successor war to World War I, 
the war to end all wars. But that is a different matter.
    Let me ask--Mr. Fuchs, I don't know--I thought I heard kind 
of squishy language from you just now on the Philippines. This 
is a dictator who has said, have at it, vigilante violence, and 
I think the number I think is 7,000 dead that we know of.
    He has even advocated for rape as a tactic--as a tool in 
order to get rid of what he has decided are criminal elements 
and druggies and drug dealers and drug users and undesirables.
    Now, my friend, Mr. Yoho, read from a statement, quite 
correctly, that our goal is to establish governments--capable 
governments that follow the rule of law.
    How is this a capable government other than being more 
efficient and killing people in extrajudicial ways that 
certainly the United States cannot condone, let alone the rule 
of law?
    I mean, I don't want to put words in your mouth but you 
sounded like, well, except for that--granted, that is a little 
messy but other than that we have got strategic goals we share.
    Well, I mean, Duterte hasn't even been consistent in that 
respect. I mean, one day he likes China. One day he likes us. I 
mean, he is threatening. He is not threatening. He could cut a 
deal with China. He could throw us out.
    My head spins with this guy who seems, frankly, unstable 
and thuggish if not murderous--hardly a partner we want to do 
business with, though we do. But we will get to that in a 
minute.
    So did you want to clarify your squishy remarks or----
    Mr. Fuchs. Sure. Thank you, Congressman.
    Well, I will try to restate I think what I was getting at, 
which is that this is a very, very difficult challenge and I 
think that without a doubt, democracy and human rights needs to 
be an essential component of our strategy for a wide variety of 
goals but including counterterrorism in Southeast Asia.
    Now, the United States, obviously, has a long-time alliance 
with the Philippines. With the previous government, with 
President Aquino, there was, I think, a very robust partnership 
on democracy and human rights as well as a variety of other 
issues.
    At the same time, I don't think that the terrible things 
that President Duterte is doing--and they are absolutely 
terrible and I think that they merit a response from the United 
States, some of which I know that you and your representant and 
your colleagues have already tried to send in a number of 
different ways--I think at the same time we need to focus on 
what our interests are there in supporting democracy and human 
rights in that country, supporting economic growth and ensuring 
that our security interests are met.
    So I think that while we do not break off diplomatic 
relations altogether with the country, there are a variety of 
things the United States needs to be doing to send messages to 
Duterte about how unhappy we are with what he's been doing. Can 
I----
    Mr. Connolly. Excuse me. Is one of those things to invite 
him, among the very first international leaders, to come visit 
Washington and the White House?
    Mr. Fuchs. And that was exactly going to be my next point, 
which I actually--just as soon as President Trump made that 
invitation I actually wrote a piece that said specifically the 
President should not be inviting the President of the 
Philippines here.
    But I think that there are also a number of other things 
that we can be considering doing to send our--to signal our 
displeasure including the potential of cutting off certain 
types of assistance to the Philippines.
    The Leahy vetting process is one way of doing that--that 
already exists. But there, frankly, are other types of 
cooperation with law enforcement with the armed forces of the 
Philippines that, frankly, can be suspended or cut off to show 
him that there is a red line that he is crossing right now in 
the way that he is running his country and that our cooperation 
is not a blank check.
    Mr. Connolly. I knew you weren't squishy.
    Let me ask you final question on this one and then I am 
going to turn to Mr. Sanderson on foreign aid.
    So the Duterte government decided that they needed a 
special envoy to the United States of America and in light of 
what you just said, do you believe the selection of Jose 
Antonio, who is a business partner with Donald Trump in 
building a tower in the Philippines, is an appropriate choice 
and sends the right signal?
    Or, I mean, is this somebody with whom we can do business? 
Is this somebody who is designed to flatter the President but 
not to ameliorate a real human rights crisis underway in the 
Philippines as we speak?
    Mr. Fuchs. I completely agree with you that this is sending 
exactly the wrong signal and I think that it is actually 
indicative of a broader problem that we may have with the 
relations of the United States and the countries in this region 
right now and President Trump's conflicts of interest--his 
businesses and his conflicts of interest and what that might 
wreak on our relationships in the region. That is one example.
    But, frankly, their corruption is a widespread problem in 
Southeast Asia. It is a way of doing business in some of these 
countries, unfortunately, and part of the problem is that one 
of the signals that has been sent to some of these countries by 
President Trump's unwillingness to get rid of his business 
holdings before taking office is that the United States may 
actually be moving closer to them in terms of the way we do 
business and that the result of that in part might be more 
envoys like this or more entreaties to the United States about 
business.
    Mr. Connolly. That is why a number of ethicists both 
Republican and Democrat strongly advocated an absolute blind 
trust so that you weren't having ongoing questions tainting 
foreign policy as well as other kinds of decisions. 
Unfortunately, that advice was not taken.
    I don't wish to impose on the chairman. So if you will 
allow me one--just one last set of questions, and I don't mean 
to preclude anyone else that may want to comment. But I thought 
I would put it to you first, Mr. Sanderson, listening to your 
testimony.
    If you look at the budget submitted by the President and, 
apparently, supported by the Secretary of State, Mr. Tillerson, 
we make some very substantial cuts in foreign assistance 
programs including democracy-building efforts in the countries 
we are talking about here today in terms of humanitarian 
services, in terms of institution building, you name it--co-
ops, health clinics, small micro businesses, women-owned 
businesses, empowerment, all that stuff, where we have been 
doing a lot of good work actually for quite some time and we 
actually have some metrics that show some results.
    Takes a little time but, all of that is cut. I mean, not 
just cut--really cut, I mean, right to the bone. To make it all 
special, apparently Secretary Tillerson is thinking of 
absorbing USAID into State Department as just another bureau, 
even though their missions are quite different.
    I wonder if you could comment on that. How does that help 
us in the mission we are talking about in this region if this 
America's back again, it looks another example to me of no, we 
are not--we are retreating and, again, allowing the Chinese to 
enter that vacuum with their foreign assistance, which isn't as 
punctilious or meritorious as ours in terms of setting metrics 
that have to be met, and making sure there are clear rationales 
that benefit large numbers of people.
    Mr. Sanderson. Nor does it come with the oversight that 
ours does. You bring up some great points, Congressman. I think 
it is a mistake to cut the State Department's budget at all. 
But I understand that all budgets are going to be coming under 
the knife except for DoD.
    Mr. Connolly. Not defense.
    Mr. Sanderson. Yes, except for DoD. So but that does recall 
the secretary and then General Mattis' comments during his 
confirmation hearing when he said, if you cut the State 
Department I have to buy more bullets.
    I do think those budgets will not be cut that sharply. I 
hope they are not cut much at all because those are 
tremendously important programs.
    They seed the field with a lot of positive things that have 
short, medium, and long-term benefits. We are a great partner 
overseas. I see it in all the countries that I go to.
    People want the assistance that covers everything from 
military to civilian to economic, judicial. You name it, they 
want that activity. It is an important part of counterterrorism 
because you are strengthening economies in communities.
    When you have idle hands, they get pulled into the gray 
market and then they get pulled into militant groups sometimes.
    To your comment about engagement, the President has sent 
mixed messages but largely messages about retreat. His national 
security staff, which is superb, goes out after those messages 
and tries to reassure our allies.
    So we have gone into Asia and to Southeast Asia to reassure 
our allies. These are important relationships. The Department 
of Defense likes to say they--you can't surge trust.
    When you are dealing with a complicated environment like 
Southeast Asia, like foreign fighters, and all the insurgencies 
that you have there, a good healthy widespread multifaceted 
relationship between the United States and our Asian partners 
in Southeast Asia in particular is excellent for the 
counterterrorism partnerships.
    If the rest of the relationship is good, that often 
redounds to the--to the other issues that we are looking at and 
that is why I would encourage deep engagement and budgets that 
do bring American culture, society, and engagement on a high 
level.
    Mr. Connolly. Thank you.
    Mr. Yoho. And I appreciate that dialogue and I can always 
appreciate my colleague bringing the politics into this.
    But truth be known, TPP wouldn't have passed. There wasn't 
support in the House, either Republicans or Democrats, or in 
the Senate, Republicans or Democrats. So it was off the table.
    It was a good call so it can be renegotiated and that is 
why we put in free trade agreements with many countries in the 
Asia Pacific that we are working on now.
    And let us see--what was the other one? I forget. You were 
talking about----
    Mr. Connolly. The Paris climate----
    Mr. Yoho. Oh, the Paris climate--and, again, that would 
have put this country at a disadvantage. We are going to lead 
on energy and you are going to see great things come out of 
that.
    So I do feel like we are back in that area. The President 
being down there, the Secretary of State, and the State 
Department is light on people.
    People are working double time in these positions. Over 130 
positions have been appointed. They just haven't gone through 
the process in the Senate. So it is being held up in the Senate 
again.
    But I do want to point out you were talking--Mr. Fuchs, you 
were talking about the importance of diplomatic relations in 
that area. You said strong diplomatic ties will help thwart 
terrorism.
    Have we not had that over the last 8 years in the previous 
administration? I mean, what is your thoughts on that or 
anybody else that wants to weigh in on that.
    Mr. Fuchs. Well, I think that we actually have had very 
positive relationships with a number of the countries in the 
region over the last 8 years and, of course, it does not mean 
that you are going to prevent every terrorist threat from 
spawning in the region.
    But I think that fundamentally you are not going to get 
anything done on counterterrorism in the region if you do not 
have those strong diplomatic relationships because, again, 
these are the ones who have the relationships with their 
counterparts in the governments in Indonesia and Malaysia and 
the Philippines.
    They are the ones who have the best information about what 
is going on in the cities and towns and villages in these 
countries and the best feel for these countries.
    They really are the front lines here in Southeast Asia for 
our counterterrorism strategy. Of course, they are not 100 
percent of the strategy but they are an essential component of 
it.
    Mr. Yoho. Okay. Then I guess my question is if we have got 
these great relationships, did we just drop the ball on this? 
Did we not follow up or was this just behind the scene we were 
distracted by North Korea? The Middle East? Anybody's thoughts 
on that.
    Mr. Fuchs. If I----
    Mr. Sanderson. I would remark that we do have a very full 
plate worldwide----
    Mr. Yoho. We sure do.
    Mr. Sanderson [continuing]. And it is hard to dedicate 
sufficient energy to every single relationship, and then when 
things like Marawi--the battle of Marawi flare-up then we shift 
our resources here and so it is a question of resources and 
attention.
    But that gets also back to cutting budgets and making sure 
the Senate moves people through and what not, which I hope that 
you do because we do retain the leadership position globally.
    We do need to be a part of most of these issues and then 
solving problems and I don't know if it is a question of 
dropping the ball or just being distracted by somewhere else.
    Mr. Yoho. Well, when you look at where we are as a nation. 
We are $20 trillion in debt. I was at a meeting last night.
    They said our deficit spending next year is going to be 
around $750 billion. We are getting worse. There are going to 
be some austerity measures.
    We want to make sure that we cut in the right area, and I 
agree with General Mattis--if you cut foreign aid you are going 
to have to buy more bullets and that is certainly not the 
direction we want it.
    So we want to have strong diplomacy, we want to have strong 
policies, and we want to make sure that the ideas that you give 
us that we can enact in the legislation are that much stronger.
    I think I had one more question and it was for you, Dr. 
Greitens. Talking about North Korea, funnelling money through 
there--what nexus does that go through?
    Does that go through any of the Chinese banks or any of the 
world banks that we could put secondary sanctions on?
    Ms. Greitens. Yes. It does both, sir. North Korea has 
revenue-generating operations throughout Southeast Asia, and 
one of the things that we've seen in recent months is that 
countries in Southeast Asia--Singapore, Malaysia, some other 
countries in the region--have actually started to tighten down 
on some of these North Korean revenue-generating operations.
    There is banking that goes through Singapore and some of 
the other financial nodes in the region. But as you indicated, 
a lot of the companies that do business with North Korea, 
around 80 percent, maybe 90 percent of North Korea's trade, is 
with China. So from both a banking and a trade perspective, 
China is really the dominant actor.
    That said, North Korea has been very good at adapting when 
one source of revenue or one set of banking networks comes 
under pressure. I have in the past advocated for the United 
States to engage on the North Korean question in Southeast 
Asia, in part to keep North Korea from moving its center of 
activity to Southeast Asia if China comes under pressure, and I 
think that is an important part.
    The Philippines, according to the World Trade Organization, 
is the third largest trade partner of North Korea today, after 
India and China, and that is not insignificant. So we should be 
putting all tools on the table.
    Mr. Yoho. We really do and, of course, we just saw that 
load of ivory tusks--I think it was 7,000 pounds--that just got 
confiscated and those are the kind of things that are funding 
terrorist organizations and it doesn't serve humanity.
    I can't tell you how much I appreciate it and, again, feel 
free to offer suggestions that we can do legislation with. We 
have done this in the past and I look forward to your input.
    I thank you for your time. I value your time and everybody 
else here.
    So with that, we thank the panel for joining us today to 
share their experience, and this meeting is adjourned.
    [Whereupon, at 4:33 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
	 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
         

                                 [all]
</pre></body></html>
